DECLARATION OF SERVICE
Re:

Roque “Rocky” De La Fuente and James Bernard Martin, Jr., v. Minnesota Secretary
of State Steve Simon
United States Supreme Court No. 20-612

STATE OF MINNESOTA
COUNTY OF RASMEY

)
)ss.
)

BRENDA HANSON, declares:
That in the City of St. Paul, County of Ramsey and State of Minnesota, on January 13,
2021, she caused to be served three copies of Respondent Steve Simon’s Brief in Opposition to
Petition for Writ of Certiorari and Certificate of Compliance, by depositing the same in the
United States mail, true and correct copies thereof, properly enveloped and prepaid first-class
postage, and addressed to:
Erick G. Kaardal
Mohrman, Kaardal, & Erickson, P.A.
150 South Fifth Street, Suite 3100
Minneapolis, MN 55402
Attorney for Petitioners
I declare under penalty of perjury under the laws of the Unite States of America that the
foregoing is true and correct.

Dated: January 13, 2021

s/Brenda Hanson
BRENDA HANSON

